                             r'­


                                                            NATIONAL SCIENCE FOUNDATION 

                                                             OFFICE OF INSPECTOR GENERAL 

                                                               OFFICE OF INVESTIGATIONS 


                                                       CLOSEOUT MEMORANDUM

          Case Number: 109090058                                                                        Page 1 of1



                   We received an allegation that' a NSF graduate research fellow! had falsely certified on the
                   fellowship application that she was not delinquent on federal debt. The certification page stated that
                   the certification was required by law to be made in order to receive fellowship funds. Our review
                   determined that the false' certification was intentional, but that it was uncertain whether the .
                   certification was still a required condition to receipt of fellowship funds. We referred the matter to
                  _NSF who concluded that the certification is no longer mandatory, and as a result, amended the
                   certification page. NSF also teiminated the fellowship, recovered the unspent fellowship funds, and
                   revised its procedures with regard to submission of an application.

                   Accordingly, this case is closed.




I




                   I   [redacted]



    I'                                                                                                                      II
         NSF OIG Form 2 (11/02)
CONFIDENTIAL                                                                         CONFIDENTIAL




       National Science Foundation 

        Office of Inspector General 





                        Confidential 

                  .Report of Investigation 

                  Case Number 109090058 

                                   5 May 2010 




                                         is
  This Confidential Report ofInvestigation theproperty of the NSF OIG and may be disclosed outside 

     NSF only by OIG under the Freedom of Information and Privacy Acts, 5 V.S.C §§ 552&552a. 


                                                                                NSF OIG Form 22b (11/06)
                                                                                •
    CONFIDENTIAL                                                       CONFIDENTIAL 



                                   Executive Summary
Allegation      The Subject falsely certified on two Graduate Research Fellowship (GRF)
                applications that she was not delinquent on federal debt. She was awarded the
                GRF the second time she applied.
The Subject     The Subject is a graduate student at the University.


OIG
Investigation   The certification page of the GRF application states that by law, an applicant
                for a GRF must certify to non-delinquency on federal debt before NSF is
                permitted to authorize fellowship funds. The Subject admitted in an interview
                that she certified to non-delinquency despite having defaulted on a federal
                10anshe received from the Department of Education (DoE d) in". Upon
                receipt of the GRF,the Subject self-disclosed to NSF that she had defaulted
                on the DoEd loan. After a review, we have been unable to determine the
                origin of the non-delinquency certification and are uncertain whether this
                certification is still required.

DOJ
Assessment      DOl declined to prosecute.

OIG
Assessment      The Subject falsely certified on her GRF application that she was not
                delinquent on federal debt.

OIG
Recommends      OIG recommends that NSF determine what action, if any, is appropriate under
                the circumstances.




                                     CONFIDENTIAL 

        CONFIDENTIAL                                                             CONFIPENTIAL




      I.        Introduction

OIG recommends that NSF consider taking appropriate action regarding a Graduate Research
Fellowship! (the GRF), awarded to the Subject? By the tenns ofthe GRF, the Subject, a .
graduate student at an institution,3 was awarded three years of living expenses plus three years of
tuition to be spent over a five-year period. The Subject is currently in the first year of the GRF.
This is the first GRF that the Subject has received.

The GRF application's certification page states:

      There are three certifications which must by law be made before the National Science 

      Foundation can authorize funds for a fellowship award. These concern 1) controlled 

      substances; 2) delinquency on Federal debt; and 3) debannent and suspension.

The Subject certified to non-delinquency, but in fact she was and is currently delinquent and has
defaulted on a guaranteed student loan she received from the Department of Education in . . .
The evidence indicates that the Subject made this false certification knowingly.

It is unclear to OrG whether any, and if so which, law, rule, regulation, or policy currently
requires NSF to mandate that its fellowship recipients certify that they are not delinquent on
federal debt. Consequently, orG recommends that NSF verify the legal necessity and/or
desirability of this certification in conjunction with its review of the Subject's specific actions, in
order to detennine what action, if any, may be appropriate for NSF to take in this matter.

      II.       Factual Summary




                                     Subject applied again in        and this time received the award.
                                  applications, the Subject checked the certification that stated:

            o        r am not delinquent on repayment of any Federal debt.

The top of the certification page states thatNSF cannot, by law, authorize funds for a fellowship 

until this certification is made. 


The certification page also contains the following warning regarding false statements: 



2


4

5   See Program Soliciation, Part III, page 6.
6   The _         application and award letter are at Tab 1.
                                                 CONFIDENTIAL
       CONFIDENTIAL                                                                        CONFIDENTIAL 




          By electronically signing this request, I am certifying that the statements made herein are·
          true and complete to the best .of my knowledge; and agreeing to accept the obligation to
          comply with NSF award terms and conditions if the request is granted. Willful provision
          of false information in this request and its supporting documents or in reports required
          under an ensuing award is a criminal offense (U.S. Code, Title 18, Section 1001).7

 It is impossible to submit an application for a GRF without making the required certifications.
 The applications are electronic, and if the applicant does not check all of the certifications, the
 applicapt receives a message that states: "Certification is incomplete. You must read and agree
 to all of the terms and conditions below before your application can be submitted."s

 The Subject was notified on                          of her successful application, and began receiving
 fellowship funds on

  In _ , the Subject contacted an NSF staff member lO and apparently stated that she had
  made the above certification regarding her lack of delinquency in error. I I The staff member then
  contacted appropriate program personnel so that they could assess the effect ofthis disclosure on
  the award. The Subject sent an email to the GRF program on                           'informing the
. program of her errorY . We understand that absent this self-disclosure by the Subject, this
  information would never have come to light as the program does not verify that the certifications
  are accurate.



 $_.
 After OIG was informed, we interviewed the Subject by telephone. 13 She told us that, since
 . ., she has struggled to pay back a Department of Education guaranteed student loan of
           She stated that the initial reason for her difficulty in repaying this loan had to do with
 severe health problems I4 that rendered her unable to work and thus unable to make the monthly
 payments. The loan went into default. The Subject stated that when she got back on her feet, the
 amount Of the monthly payments were more than she could afford, and the loan continued in
 default. The Subject stated that while she has been making payments over the years, such
 payments have not been sufficient to satisfy the creditors assigned by the Department of

 7  The certifications pages for both the _ _ GRF applications, signed by the Subject, are at Tab 2
 8  See Tab 3 for the email from the GRF Program Director confmning this.
  9 The GRF, funded at $121,500, has two components, tuition payments and living expenses. Both components are
  to be paid for any of 3 years over a 5-year period. Both components are paid by the recipient's University from



                                                                                        $_
. funds sent to the University by NSF. The Subject's fellowship is $10,500 in tuition for each of the 3 years, and
  $2500 per month in living expenses for these same three years. The Subject is in her first year of GRF and the
  University pays her $1250 every two weeks. According to the Subject, she received her first check on
         and has received funds every two weeks thereafter, fora total of approximately           as of
          Further, NSF has provided the Subject's University with $10,500 in tuition payments for                year.
  See: Tab 4 for the MOl ofOlG's telephone interview of the Subject and the MOl of a conversation with the GRF
  Program Director.
 wT~Su~ect~o~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~~
 has no involvement in the GRF program, but apparently knows the Subject in another capacity.
 11            has not been interviewed. 

 12 This Email is at Tab 5. 

 13 See Tab 4 

 14 The Subject told us she had _ 


                                                 CONFIDENTIAL
      CONFIDENTIAL                                                                         CONFIDENTIAL 



Education. Currently, with interest and penalties, the Subject stated that she owes the federal
government approximately $248,000. Subsequently, the Subject provided paperwork that
indicates that the loan balance is approximately ,$260,000. 15

The Subject stated that she read the certification page on both her                GRF
applications. When asked why she certified to non-delinquency, the Subject stated that she did
so because she was making some payments on the loan, and was making an effort to pay the loan
back. When we asked why she changed her mind about the propriety of making the certification
given her efforts to repay, she stated that when she learned she received the GRF i n _ ,
she looked again <1;t the certification page and felt "uncomfortable". She wanted to be "ethically
correct", and so decided to notify the staff member at NSF.

     III.    Legal Issues

OIG is unable to determine which specific law or regulation, if any, currently requires the
certification at issue here. 16 The origin of the requirement appears to be the 1985 version of
OMB Circular A-129, and NSF Standard 0f,erating Guidance 1989-01, which is now archived
but does not appear to have been rescinded. 7 Since 1988, however, QMB Circular A-129 has
not contained language requiring this certification as it applies to all federal awards. Further, the
version ofOMB Circular A-129 in effect at the time the fellowship was made, and still in effect,
contains language that appears significantly more limited in scope, in that it applies only to loan
and credit programs. Such programs are different from fellowships. IS OMB Circular A-110, 2
CFR Section 215.22(h)(2), referenced in Paragraph 22 of the governmentwide Research Terms
and Conditions, may provide a basis, but the requirement does not appear mandatory. ,A brief
review of the policies of other federal agencies does not provide clarity, either.

     IV.     Recommendations

As a result of the ambiguity discussed above, OIG recommends that NSF undertake a fresh
review of the current state of the law, regulation, and policy to verify that the federal loan
delinquency certification is required, and if not, whether NSF still wishes to require it.

Regarding the Subject, whether or not any law, regulation, or policy actually required the non­
delinquency certification, it was nonetheless still a part of the fellowship application that the
Subject submitted to NSF and to which the Subject admittedly falsely certified. 19 However,
given the uncertainty discussed above, the Subject may have been untruthful about a fact that, as
a matter of law and policy, may no longer be a bar to receipt of fellowship funds. As a result,
NSF may no longer consider this untruth relevant or material to its fellowship decision. Further,

15 The Subject provided us with the materials attached at Tab 6. 

16 Neither the NSF Policy Office nor the GRF program knew the source of the requirement. 

17 The SOG is at Tab 7. We have not been able to obtain a copy of the 1985 OMB Circular A-129, but from related 

documents, we have been able to ascertain that the requirement appears to be contained in Paragraph 6 of the 1985 

version ofOMB Circular A-129 dated May 9,1985. Also at Tab 7 is a paper version of the GRF Application where 

a reference to OMB Circular A-129 appears. 

18 The relevant page addressing loan delinquency from the current OMB Circular A-129 is at Tab 8. 

19 OIG referred this matter to the Department of Justice as a possible violation of 18 U.S.C. § 100 1, false statements 

to the federal government, and the Department of Justice declined to prosecute. 

                                                 CONFIDENTIAL
     CONFIDENTIAL                                                           CONFIDENTIAL


the false certification would not have come to light absent the Subject's self-disclosure. OIG
recommends that NSF review the totality of the circumstances surrounding the Subject's actions,
in conjunction with its verification of the current state of the law, to determine whether it should
take any action regarding the Subject.

   v.       The Subject's Response to the Draft Report of Investigation

The Subject had no comments to the draft Report of Investigation.




                                           -. 





                                         CONFIDENTIAL
                                      f~ATtot--lAL   SClENCE FOUNDATfON
                                           4201 WILSON BOULEVARD
                                          ARliNGTON, VIRGIf'.!IA 22230



    DIRECTORATE FOR EDUCATION AND 

    HUMAN RESO UReES 



   Division of Graduate Education


   MEMORA.NDUM


   DATE:           July    ,2010


   TO:                    Marrett, Director (Acting)
                  National Science Foundation

                       ~.                 .          ( j !,il ))tV'r"~1'.)1
  FROM:                  LwhtbourneDlrector          ,-,--I'. r" - \ \
                    . . . "',                          J        '7{7..1   \0
                  D1V151On of Graduate                             '


  RE:             OIG ease Number: I09090058


 In its investigation ofc2.se number I09090058, the OIG concluded t h a t _ a
 recent            o1'a Graduate Research Fellowship a\vard, falsely certi~
 application that she was not delinquent on     repayment of a        debt. The OIG
 recommended that NSF determine what action, if any, is appropriate under the particular
 circumstances of 1'1'15.
  Because           were legal issues involved in this matter, we met ",rith representatives          aGe
  to elicit       views on the OrG            aGe indicated that you had asked them to review
  whether ,NSF was required by law to have GRF applicants                 a  debt delinquency
, celiific2.tion at the time of application, as the certifications      suggests. aGe
  NSF was no longer legally                to require GRF applicants to complete such a
  Thus, to dispel any confusion, we           amended the certifications page to eliminate any
 suggestion that NSF is compelled by la\~l to require such a certification. In the coming months,
  we also        to discuss whether               to require such a certification of our fellov.'ship
 applicants is appropriate from a policy stfu"1dpoint.
With that context, we reviewed        particular circumstances
determine what action to        v"ith        to her award. Ms.
the     of application, she 'was delinquent on paying back a gu
        from the Depmtl'TIent of Education in the            ~ 
.
        on her GR'C' 2.pplicatiol1     she was not ' ' 
 quent because she had
          on the 103.n, and was           in a bona fide 
       to pay it back.
 GRF award in                            re-reviewed      ce:-tifications page,       felt 

 l.mcomfoltable                     on no delinquent debt. Asa              of her l.:neasiness, 

 contacted NSF                    one month after receiving her first installment of         award, to 

 inform us about 

After extensive deliberation, we         concluded that it is appropriate to terminate the fellowship.
It is clear      Ms. _ d i d not provide an accurate response to                    question of
whether she was d~ repayment of a                              debt.     she provided an accurate
           at the time of submitting her application, she vlould not       been eligible to be
considered for a        award.        to preserve the integrity of the application process, and as a
matter of equity, the fellovvship will be tenrinated effective September 1, 10.
However, we also               that Ms                   came forvi'ard voluntarily to inform  of
her false certification. She also coo         ' ely      the OIG's investigation. light of Ms.
                                   regard, Vie have opted not to request that Ms.
                                     that she     received       NSF up to this point.
We have already           Ms.                         her home institution about our decision.
We hope that this resolves the matter. Should you have 2l1y questions or concerns about
foregoing, however, please do not          to contact me.




                                        James Lightbourne
                                          NATIONAL SCIENCE F01JN-:DATION
                                                       Grant Lettsr
                                                                                         PI Name:r'Jone, l'Jone
     p.ward Date:                                                                         July 28, 2010
     .Z,ward No .
     .l:l.mendment No.                                                                    002

     Dr,




                                                       as amend:::d th::: sum of $40,500 ,,'as a',,'arded to
                                                             und:::r the direction of your
                                                               project entit2ed:
    "Graduate Research Fe2lowship Program."
    Thi s .Z,j'nendment                        Amendment 001:
  ~ no 20nger be USed to support your graduat'e s t u d e n t , _ '
  . - . . - : NSF vdllbe                             her fellowshiD as of SeDternber 1, 2010.
  !.'.::>J;' aciS 2.Lreaay cornm1LT'J.icated this to   fellow.    -    ,    ­


   Except as modified by this amendment} the gr~"t conditions remain
   The     cog~izant               NSF program official for this grant is Gisele T. Muller-Parker
   (703) 292-7468.  The cognizant NSF grants and agreements official contact is
   Pamela A. Hawkins (703) 292-4814;
  Sincerely,

  Kathleen C. 3aukin
  Grants and Agreements OffiCer
  CFDA No, 47.076
         ""<;:'\...1""''',:Hl,   edu




Printed from eJackei: 07/28/10                                                                  Page 1'of 2
